Before the Committee on Transportation and Infrastructure
Subcommittee on Aviation
United States House of Representatives


For Release on Delivery
Expected at               Progress and Challenges
                          With FAA’s Call to Action
10:00 a.m. EST
Thursday
February 4, 2010
CC-2010-028
                          for Airline Safety




                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Mr. Chairman, Ranking Member Petri, and Members of the Subcommittee:

We appreciate the opportunity to testify today on the status of the Federal Aviation
Administration’s (FAA) Airline Safety and Pilot Training Action Plan (Call to Action
Plan) to improve airline safety and pilot training industry-wide. FAA announced its
plan after hearings regarding the Colgan Air accident last February. While the Colgan
crash has not called into question the overall safety of air travel, the hearings
highlighted differences between mainline and regional air carriers’ operations and
safety records—a significant concern as regional carriers have been involved in the
last six fatal, commercial accidents. The FAA’s Call to Action plan focuses on
reducing risks at air carriers; promoting best practices from mainline to regional
carriers; and seeking industry compliance with safety initiatives involving pilot
training, fatigue management, and pilot professionalism. Today, I would like to
discuss three areas: (1) FAA’s progress in implementing Call to Action initiatives,
(2) FAA’s role in strengthening air carriers’ voluntary safety efforts, and (3) other
critical pilot safety issues that emerged after the Colgan accident.

IN SUMMARY
Under the FAA Administrator’s leadership, FAA took swift action by creating the
Call to Action plan to refocus and accelerate industry efforts to address pilot
workforce issues and strengthen voluntary safety programs. However, progress has
been limited in implementing initiatives with the greatest potential to improve safety,
such as issuing new rules governing crew rest and training. FAA also has not
followed up to ensure air carriers’ Call to Action commitments effectively meet
planned safety goals. Finally, other critical issues emerged after the Colgan accident
that remain unaddressed, such as potential correlations between aviation accidents and
pilot experience and compensation. We have ongoing work on these issues and will
keep this Subcommittee apprised of our findings.

BACKGROUND
Human factors impacting pilot performance have been on the National Transportation
Safety Board’s (NTSB) list of needed safety improvements for the last 20 years. 1 For
example, according to the NTSB, fatigue has been associated with air carrier
accidents resulting in 250 fatalities over the last 16 years. Although the NTSB has
identified this issue as an area of concern for all air carriers, it is particularly critical at
regional carriers. The NTSB has cited pilot performance or fatigue as potential
factors in four of the last six fatal Part 121 2 accidents involving regional carriers—
including the crash of Colgan flight 3407 on February 12, 2009, that resulted in
50 fatalities.


1
    The NTSB’s Most Wanted List of Transportation Safety Improvements, created in 1990.
2
    14 CFR § 121, Operating Requirements: Domestic, Flag, and Supplemental Operations. These carriers operate larger
    aircraft with primarily scheduled flights.


                                                                                                                  1
FAA’s Call to Action Plan, announced on June 24, 2009, consists of 10 short- and
mid-term initiatives to enhance pilot performance and training, increase air carrier
participation in voluntary safety programs, and expand pilot records review. FAA
also set goals to develop new safety oversight guidance to its inspectors, issue
rulemakings on pilot fatigue and training, conduct regional safety forums to discuss
industry best practices, and develop programs addressing pilot professionalism. (See
exhibit for table showing all 10 initiatives, their key goals, and Office of Inspector
General analysis of their status.)

FAA’S PROGRESS IN IMPLEMENTING CALL TO ACTION
INITIATIVES HAS BEEN MIXED
Last week, FAA issued a report on the status of the implementation of its Call to
Action plan, which concluded that FAA is on track to successfully meet the Plan’s
milestones. While FAA has taken action on some of the initiatives over the last
7 months, such as holding regional safety forums, 8 of the 10 initiatives are either
falling behind schedule or not meeting intended goals. 3 Of key concern are the
missed milestones related to safety areas raised by NTSB and congressional hearings
after the Colgan accident. Specifically, FAA has delayed issuing new rulemakings on
crew rest and training requirements and establishing a program to improve pilot
professionalism. Additionally, FAA’s special inspections of air carrier pilot training
programs were not effectively implemented, and FAA has not issued new safety
oversight guidance to field offices.

FAA Has Not Implemented Key Rulemakings on New Crew Fatigue and
Training Requirements
A key element in FAA’s Call to Action plan is to issue new rules on crew rest
requirements. The regulations, originally written in 1937, were last modified in 1985.
According to numerous stakeholders, they are outdated, difficult to understand, and
not scientifically based. Repeated attempts to revise the regulations have failed due to
disagreements among FAA, airlines, and aviation trade associations. As part of the
Call to Action in July 2009, FAA established a rulemaking committee to once again
address the existing rules and make recommendations for revising them. The
committee made substantial progress and met its September 2009 deadline to deliver a
final report to FAA.

FAA planned to issue the Notice of Proposed Rulemaking (NPRM) by December
2009 but failed to meet that milestone. FAA now intends to issue the NPRM later this
spring. However, there will be an extensive comment period after issuance, and in the
past, these comments have led to significant debate. In 1995, FAA made a similar
attempt to change rest requirements but had to withdraw the NPRM due to
overwhelming industry opposition. While maintaining momentum on this initiative is
3
    While FAA missed the original deadline for another initiative, it has since been completed.


                                                                                                  2
critical to the success of the Call to Action, FAA must ensure the new rule is
comprehensive enough to adequately address pilot fatigue safety issues.

FAA is facing similar issues with its NPRM to revise crew training requirements.
The proposed rule would establish new requirements for traditional air carrier safety
training programs. For example, it would require training in a complete flight crew
environment, flight simulator devices, and new special hazard practices for pilots and
crew members. It would also require new practices in Crew Resource Management. 4
The rule would also simplify and modernize regulations associated with qualifications
and training for aircraft dispatchers and crew. FAA issued the NPRM on
January 12, 2009—6 months prior to FAA’s Call to Action Plan. A year later,
however, FAA still has not finalized the rule even though this was established as a
goal in the Call to Action Plan. FAA received over 3,000 pages of comments on its
training NPRM and has now determined that it will be necessary to develop a
supplemental NPRM to address these concerns. FAA intends to issue the NPRM later
this spring.

FAA’s Special Inspections of Air Carrier Training Programs Were
Ineffectively Designed and Implemented
Recognizing the urgency of proposals in the Call to Action, the FAA Administrator
ordered inspectors to conduct a focused two-phase review of air carriers’ flight crew
training, qualifications, and management of training programs.

    • Phase 1: By July 15, 2009, inspectors were to meet with the carriers’ directors of
      operations, directors of safety, and company officials responsible for flight
      crewmember training and qualification programs. The purpose of these meetings
      was to determine if air carriers had implemented a previous FAA recommendation
      to track and manage crew members who have limited experience (low-time pilot),
      failed evaluations, or repeatedly demonstrated the need for additional training.

    • Phase 2: By September 30, 2009, inspectors were required to validate that
      carriers’ training and qualification programs met regulatory standards. This
      included ensuring the carrier reviewed the entire performance history of any pilot
      in question, provided any needed remedial training, and corrected performance
      deficiencies.

    Generally, inspectors completed these reviews on time but criticized the lack of
    guidance from FAA Headquarters, the adequacy of surveillance questions, and the
    lack of communication from Headquarters on the overall results. For example, for
    Phase 1, FAA did not provide specific criteria to inspectors for identifying pilots
    with performance problems even though inspectors had never conducted this type of
    review before. As a result, the consistency and quality of those inspections may
4
    Crew Resource Management training focuses on leadership and decision making in the cockpit.


                                                                                                  3
have varied. More importantly, the review identified more than 20 air carriers that
had not fully implemented remedial training programs as previously recommended
by FAA in 2006.

In addition, we are concerned that the surveillance questions during Phase 2 were
not comprehensive enough to detect flaws in the carriers’ training and qualifications
programs. Although inspectors observed 2,419 pilot evaluation and training events
during Phase 2, there were no questions on whether the pilots completed the
evaluation successfully—a key measure of a training program’s effectiveness. For
example, at one carrier, an inspector confirmed that the training program met
regulatory requirements; however, the inspector also noted that the captain crashed
the simulator during a standard departure test. The check airman conducting the
pilot’s evaluation ultimately failed the pilot based on his poor performance. As a
result, the “yes” response to this survey question did not flag the pilot’s performance
problems. Moreover, FAA Headquarters only captures “no” responses in any roll-
up analysis of carriers’ compliance. A true evaluation of an air carrier training
program should have included a review of the program’s effectiveness, not just
compliance with requirements.

We are also concerned that many of FAA’s surveillance questions were not relevant
to actual air carrier operations since more than 40 percent of the responses for
Phase 2 were recorded as “not applicable” (see figure 1).




                Source: FAA’s final report, “Answering the Call to Action on
                Airline Safety and Pilot Training,” issued January 2010

For some questions, this percentage was even higher. For example, “not applicable”
responses to questions about carriers’ pilot evaluators and instructors totaled about
66 percent. For questions about outsourced training, “not applicable” responses
totaled about 76 percent (see figures 2 and 3).




                                                                                     4
Source: FAA’s final report, “Answering the Call to Action on      Source: FAA’s final report, “Answering the Call to Action on
Airline Safety and Pilot Training,” issued January 2010           Airline Safety and Pilot Training,” issued January 2010


           Inspectors noted that the numerous “not applicable” responses were due in part to
           several questions requiring the inspector to verify training during in-flight tests;
           however, most of the training at regional air carriers is typically conducted using
           simulators. Moreover, while four of the five regional carriers we visited contract for
           flight simulator equipment, only one carrier contracted for instructors to perform the
           training. Therefore, only a few of these questions applied, demonstrating how little
           the questions developed by FAA Headquarters actually reflected an understanding
           of air carrier programs—much less evaluated their effectiveness. Further, FAA did
           not share the results of these reviews with the field inspectors until it issued the final
           report.

           During our current audit on pilot training, we will also evaluate whether the carriers
           have a system in place to prevent poorly performing pilots from being paired with
           each other or with a low-time pilot since this could result in a scheduled flight being
           operated by two pilots who are in remedial training. Three of the five regional
           airlines we visited did not have an automated tool in their pilot monitoring programs
           to alert the scheduling department for crew pairings. This is an important watch area
           since FAA’s special inspections found that 9 of the 85 carriers (11 percent) they
           reviewed did not have any component of a remedial training system in place.

           In addition to performing focused inspections, FAA’s Call to Action Plan included
           issuing new safety oversight guidance for inspectors through scenario-based training
           at an August 2009 All-Managers Conference. The training was intended to address
           issues raised by the DOT Secretary’s Independent Review Team on Managing Risks
           in Civil Aviation. 5 For example, the team found remarkably varied regulatory
           approaches among inspection staff, which could drastically affect the consistency of
           decision making processes. The All-Managers workshop focused on managing
           contrasting regulatory views within the workforce, moderating extremes in

       5
           The Independent Review Team was convened after serious safety issues were discovered with Southwest Airlines’
           maintenance program in 2008.


                                                                                                                          5
  regulatory style, and optimizing the regulatory effectiveness and coherence across a
  diverse team of inspectors. However, the workshop was limited to managers and
  excluded field inspectors—the key group who had been identified as having
  inconsistent regulatory approaches. Therefore, at a minimum, the success of the
  workshop depended on the transfer of information from managers to their staff. We
  found, however, that this did not occur at all inspection offices. Further, FAA
  managers did not develop any new written guidance addressing this issue; yet, FAA
  considers this initiative complete. Lack of standardization in oversight has been a
  long-standing inspector workforce issue, and it is unlikely that a one-time seminar
  for managers only would fully address the problem. An essential key to gaining
  consistency among field inspectors is to provide standardized, written guidance that
  inspectors must follow.

FAA Missed Its Milestone for Establishing Programs To Improve Pilot
Professionalism in the Cockpit
A lack of pilot professionalism has been cited as a safety concern in four of the last
six fatal accidents involving regional airlines (see table 1 below). According to
NTSB, crews violated “sterile cockpit” rules, requiring that pilots refrain from
personal conversations during takeoffs or landings in the Colgan Air and the
2006 Comair accidents.

               Table 1. Part 121 Accidents Involving Regional Carriers
  Accident      Regional Carrier          Accident Site     Fatalities       Contributing Factors
    Date
  12-Feb-09      Colgan Air Inc        Buffalo, NY             50        Pilot professionalism, training,
                    *
                (DBA Continental                                         and pilot fatigue issues.
                  Connection)

  27-Aug-06        Comair Inc          Lexington, KY           49        Pilot performance, non-
                   (DBA Delta                                            pertinent conversation during
                   Connection)                                           taxi.
  19-Dec-05      Flying Boat Inc       Miami, FL               20        Deficiencies in the company’s
               (DBA Chalks Ocean                                         maintenance program.
                     Airways)
   19-Oct-04   Corporate Airlines      Kirksville, MO          13        Pilots’ non-pertinent
                (now Regions Air)                                        conversation during the flight
                                                                         and fatigue.
   14-Oct-04    Pinnacle Airlines      Jefferson City, MO       2        Pilots’ deviation from
                 (DBA Northwest                                          standard operating
                     Airlink)                                            procedures, and poor
                repositioning flight                                     airmanship.

   8-Jan-03       Air Midwest          Charlotte, NC           21        Deficiencies in company’s
                (DBA US Airways                                          oversight of outsourced
                   Express)                                              maintenance.

*Doing Business As (DBA)
 Source: OIG analysis of NTSB data




                                                                                                            6
Crew fatigue and distracting conversations in the cockpit have also been noted as
safety concerns in non-fatal incidents—for both mainline and regional air carriers.
For example, a Northwest flight overflew its Minneapolis destination by more than
100 miles on October 21, 2009, because the pilots were purportedly talking and using
their laptop computers. In 2008, on a GO! Airlines flight (subsidiary of Mesa
Airlines), two pilots fell asleep during a mid-morning flight from Honolulu to Hilo,
Hawaii.

FAA intended to develop flight crew mentoring programs by July 31, 2009. FAA
hoped this would involve senior pilots working with junior pilots to address issues
with professional standards and flight discipline. However, discussions with industry
representatives highlighted the many challenges facing development of a mentoring
program, such as obtaining personal commitments from multiple staff at multiple
carriers. Because FAA could not overcome these challenges, it missed the milestone.
FAA is currently planning to host a forum for air carrier employee organizations this
year but has not developed a detailed, long-term plan to address this issue. While
pilot professionalism cannot be regulated, training and fatigue have a direct impact on
pilot performance, and those factors can be regulated and improved by FAA.

FAA NEEDS TO TAKE ADDITIONAL ACTION TO
STRENGTHEN AIR CARRIERS’ VOLUNTARY SAFETY
EFFORTS
FAA requested that Part 121 air carriers and their unions provide written confirmation
of verbal commitments made at the June 15 Call to Action meeting to strengthen
voluntary safety efforts. To facilitate this process, the FAA Administrator sent letters
to 98 Part 121 carriers 6 requesting improvements in three critical safety areas: pilot
records, contract provisions, and voluntary safety programs. While FAA received
written responses from 80 of the 98 carriers (82 percent), many were only partial
commitments or no commitment at all. Specifically, FAA requested carriers to do the
following:

    • Pilot Records—Implement a policy asking pilot applicants for voluntary
      disclosure of all FAA records, including notice of unsatisfactory evaluations.
      According to our analysis, 20 of the 80 carriers (25 percent) committed to
      expanding pilot records reviews during their hiring process and 46 carriers already
      had such programs. Conversely, seven carriers did not commit to a full disclosure
      policy and another seven did not state their intention on this issue. For example,
      one carrier stated it already had a “rigorous pilot selection process” but did not




6
    FAA actually sent letters to 101 air carriers; however, 3 air carriers ceased operations prior to FAA releasing its results.


                                                                                                                                   7
      provide any description of its process. Another carrier stated it complied with
      PRIA, 7 which was not the information FAA requested.

    • Contract Provisions—Seek specific and concrete ways to ensure that smaller
      airline partner carriers adopt and implement the larger company’s most effective
      practices for safety. Of the 80 carriers that responded to FAA’s letters, 29 stated
      this effort was not applicable to their operations because they did not have contract
      partners. Thirty-five carriers responded that they already had contract provisions
      in place. Only one carrier offered a new commitment in this area. The remaining
      15 include carriers that either did not respond or submitted unclear responses.

    • Voluntary Safety Programs—Establish a Flight Operational Quality Assurance
      (FOQA) program and Aviation Safety Action Program (ASAP) 8 and develop data
      analyses processes to use the information in improving the safety of their
      operations. As shown in table 2, many carriers already had FOQA or ASAP
      programs or were planning to implement them. However, several responded that
      they did not have either of these programs and had no plans to implement them.

            Table 2. Air Carrier Commitments on Voluntary Safety Programs
             Air Carrier Commitments                                  FOQA                           ASAP

      Already Implemented                                        14            18%             50             63%

      Plan to Implement                                          41            51%             19             24%

      Do Not Plan to Implement                                   22            28%              8             10%

      Non-Specific Response*                                     3              4%              3             4%

    *Air carrier response received but no specific commitment made.
     Note: Percentages do not total 100 percent due to rounding.
     Source: OIG analysis of Total Air Carrier Commitment Responses - 80 out of 98 letters sent to active certificates.

Obstacles such as cost, equipment availability, and fleet size make FOQA
implementation on a wide-scale basis extremely challenging for some regional air
carriers. For example, 12 carriers either said they did not have the money to
implement FOQA programs or they were too small for such an endeavor. This is a
significant concern since a key goal of the Call to Action was to expand smaller or
regional carrier participation in these types of safety programs. FAA has not


7
    Pilot Records Improvement Act, Pub. L. No. 104-264 (1996).
8
    FOQA is a program for the routine collection and analysis of digital flight data generated during aircraft operations. The
    intent of FOQA is to provide greater insight into the flight operations environment. ASAP is a joint FAA and industry
    program intended to generate safety information through voluntary disclosure that may not be otherwise obtainable to
    identify precursors to accidents.


                                                                                                                            8
presented any plans to encourage smaller carriers to establish these important safety
programs.

In addition, we found many carriers’ responses were either vague and lacked detail as
to actions needed and timelines or stated they did not intend to take any action. For
example, regarding FOQA:

 • Five carriers merely stated they already had internal FOQA programs without
   further elaboration.

 • Another carrier stated they are “currently exploring the implementation of
   FOQA.”

 • One carrier stated it would finalize its efforts to develop internal methods and
   technologies to more effectively analyze this data.

Despite the lack of rigor in these commitments, FAA did not follow up on any
responses, ascertain whether carriers’ planned actions would effectively meet safety
goals, set milestones for completing safety improvements, or follow up with carriers
that did not respond at all to the request for written commitments. While air carriers’
commitments to FAA are voluntary, these steps could better ensure that regional
carriers effectively participate in safety programs. Yet, FAA’s final Call to Action
report has concluded that this initiative achieved its intended outcome.

OTHER CRITICAL PILOT SAFETY ISSUES THAT EMERGED
AFTER THE COLGAN ACCIDENT REMAIN LARGELY
UNADDRESSED
Other critical issues highlighted during hearings after the Colgan crash have not been
addressed in the Call to Action plan. While some are longstanding concerns
regarding pilot performance, the hearings emphasized their overall impact on safety,
particularly at regional carriers. These issues present significant challenges for FAA
as well as policy makers and industry stakeholders in determining the nature and
extent of actions needed. These include the following:

 • Pilot domicile: Piloting is a highly mobile profession, and pilots’ residences are
   often in locations that are hundreds of miles from their assigned operations base.
   Pilot domicile issues were identified during the NTSB investigation into the
   Colgan accident as both pilots had commuted hundreds of miles before reporting
   for duty. Despite the potential impact commuting distances could have on pilot
   fatigue, the air carriers we have visited thus far do not track this information, and
   FAA does not require carriers to have policies addressing pilot domicile issues.
   As a result, the potential safety impact or extensiveness of this issue is unknown.



                                                                                      9
    • Differences in pilot training and hiring: Although regional and mainline air
      carriers are under the same regulations and oversight system, the Colgan crash
      highlighted differences between the hiring, training, and safety programs of most
      regional and mainline carriers. For example, mainline carriers typically hire more
      experienced pilots from the military, whereas regional airlines usually hire pilots
      with fewer flight hours from flight training schools and Part 135 9 or corporate
      business operators. Additionally, many mainline carriers use a more advanced
      training program that uses data-driven quality control processes, enabling carriers
      to refine training based on identified needs. In contrast, most regional carriers
      have a traditional training program based on pilots receiving a minimum number
      of hours, which does not require the same amount of data collection and analysis.

    • Pilot experience and pay: Many stakeholders have expressed longstanding
      concerns regarding a possible relationship between aviation accidents and pilot
      experience. The NTSB raised concerns about the disparate experience levels of
      the two pilots in the Colgan accident. The NTSB also raised pilot pay as a
      potential factor, but no known study has been conducted to determine if a
      correlation exists between pilot pay, experience, and accidents. We are currently
      reviewing these issues, and while there are data limitations due to the relatively
      small number of accidents and incomplete or inconsistent reports of data, we have
      identified some preliminary trends. For example, our analysis of pilot experience
      in the last 10 major Part 121 passenger accidents (4 mainline carriers and
      6 regional carriers) that occurred since 2000 showed that the mainline pilots
      involved consistently had more total flight time than their regional counterparts,
      with the exception of 1 co-pilot. Our preliminary analysis of pay in both
      industries shows that mainline pilots are compensated more than their regional
      counterparts, and compensation is driven by seat position, seniority, and aircraft
      type.

We are continuing our reviews in each of these areas and expect to issue our results
later this year.




9
    14 CFR § 135, On-Demand, Operating Requirements: Commuter and On Demand Operations and Rules Governing
    Persons On Board Such Aircraft. 14 CFR § 119, Certification: Air Carriers and Commercial Operators, and some of the
    requirements of Part 91 also pertain to on-demand operators and commercial air carriers. This group operates smaller
    aircraft that are configured for 30 passengers or less or under 7,500 pounds of payload. Most of these operators fly on-
    demand (i.e., at the request of their customers).


                                                                                                                        10
CONCLUSION
FAA’s primary mission is ensuring aviation safety, and FAA maintains that it ensures
one level of safety for all air carriers—both regional and mainline. However, recent
fatal accidents and the resulting scrutiny raise questions as to disparities in regional
and mainline operations that could impact safety, particularly in terms of pilot
training, fatigue, and professionalism. While FAA’s Call to Action Plan is a good
first step, FAA’s progress in implementing initiatives has been slow. FAA must
develop initiatives that address root causes of safety problems and implement a
process to measure their progress and impact on safety. We are continuing our work
on FAA’s actions to implement the Plan and several other critical issues that emerged
after the Colgan accident. We will keep this Subcommittee apprised of our findings.

That concludes my statement, Mr. Chairman. I would be happy to address any
questions you or other Members of the Subcommittee may have.




                                                                                     11
EXHIBIT. FAA’S CALL TO ACTION INITIATIVES
Initiative               Milestone                      OIG Analysis of Status

Fatigue Rulemaking       December 31, 2009              Missed Milestone
                                                        FAA hopes to issue it this spring

Focused Inspection       Phase 1: July 15, 2009         Phase 1 and 2 completed, but
Initiative               Phase 2: September 30,         questions were poorly designed and
                         2009                           ineffectively implemented

Training Program         SAFO to be issued by           Missed Milestone
Review                   July 31, 2009                  FAA hopes to issue it by
                                                        February 2010
Air Carrier              Send letters to all carriers   Letters were sent on time, but FAA
Commitment Letters       by June 30, 2009               has not followed up on air carrier
                                                        commitments

Union Commitment         Send letters to unions by      Letters were sent on time, but FAA
Letters                  June 30, 2009                  has not followed up on union
                                                        commitments

Mentoring                Develop and seek industry      Missed Milestone
                         comment on mentoring           Meetings planned with air carriers
                         programs by July 31, 2009      and industry in 2010

Regional Safety          Hold 10 safety forums          Milestone Met
Forums                   across country by July
                         2009

Crew Training            After August 10, 2009,         Milestone Delayed
Requirements             FAA will review                FAA hopes to issue by this spring
                         comments and promptly
                         issue rule

Guidance to              Hold All Managers              Missed Milestone--guidance
Inspectors on Safety     Meeting by August 2009         Held Managers Meeting but did not
Oversight                and issue inspector            issue inspector guidance
                         guidance

Final Report             Issue report by             Missed Milestone--one month late
                         December 31, 2009           Report issued January 26, 2010
Summary :      Missed Milestones =                       6
               Met Milestones =                          1
               Met Milestone, but not intended outcome= 3
Source: OIG analysis of FAA’s Call to Action document


  Exhibit. FAA’s Call to Action Initiatives                                                  12
